                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250


February 27, 2007


REPLY TO
ATTN OF:      50501-8-FM

TO:           David M. Combs
              Chief Information Officer
              Office of the Chief Information Officer

              Kevin Brown
              Deputy Chief for Management
              Natural Resources Conservation Service

              Sherie Hinton-Henry
              Deputy Administrator
               for Operations Management
              Rural Development

              Teresa C. Lasseter
              Administrator
              Farm Service Agency

FROM:         Robert W. Young       /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Information Technology – Stolen Computer Equipment Containing
              Sensitive Information


We have completed our review of the Department of Agriculture’s (USDA) controls over stolen
computer equipment for the Farm Service Agency (FSA), Natural Resources Conservation
Service (NRCS), and Rural Development (RD) at the Information Technology Services (ITS)
field sites. This letter represents the results of our review. Our objective was to determine, to
the extent possible, what information resided on the stolen computers and what sensitive
information currently resides on the existing computers.

We found that controls over stolen computer equipment were lacking in FSA, NRCS, RD, and
ITS. Specifically, we found that Privacy Act/Sensitive information was stored on computers that
were stolen. In addition, the agencies did not notify the individuals whose information may
David M. Combs et al.                                                                        2


have been compromised. These agencies lacked policies and procedures to adequately notify
proper authorities and affected parties when thefts of computer equipment occurred. Prior to a
June 23, 2006, Office of Management and Budget (OMB) memorandum requiring improved
security over sensitive information, Office of the Chief Information Officer (OCIO) had
provided agencies limited guidance on actions to take if computers were lost or stolen. OCIO
did provide additional direction to the agencies after the OMB issuance, but the guidance still
was not specific on procedures to determine whether personally identifiable information was
contained on the computers. As a result, personally identifiable information of USDA customers
and employees may have been lost and is at risk for improper use.

BACKGROUND

During recent months, the disclosure or theft of Privacy Act/Sensitive information has received
renewed attention within the Government. A high profile theft of equipment carrying millions of
Privacy Act/Sensitive records led the OMB to issue new mandates on securing this type of
information. On June 23, 2006, OMB issued Memorandum M-06-16, “Protection of Sensitive
Agency Information,” which required agencies to encrypt information, within 45 days, on all
mobile computers/devices which carry agency information unless the information is determined
to be non-sensitive. In addition, OCIO has issued several memorandums concerning lost or
stolen computer equipment. In a June 27, 2006, memorandum, OCIO required agencies to
review lost or stolen items containing sensitive information and report it as an incident. We
noted that the agencies in our review had reported back to OCIO that computer equipment had
been stolen but it was unknown as to whether Privacy Act/Sensitive information was on the
computers.

OBJECTIVE

The primary objective was to determine, to the extent possible, what information resided on the
stolen computers and what sensitive information currently resides on the existing computers.

SCOPE

Our scope was computers reported stolen at the subject agencies from October 1, 2005, through
May 31, 2006. We obtained a listing of stolen computers from ITS. ITS did not track, report
and monitor these items, but generated the listing after we requested it. In total there
were 95 pieces of computer equipment on the list. Exhibit A documents our sample of locations
visited and where phone interviews were conducted.

METHODOLOGY

We interviewed IT specialists and computer users at the locations contained in Exhibit A. In
addition, we downloaded directory information from the ITS Large Office in Kansas City,
David M. Combs et al.                                                                          3


Missouri, in an attempt to identify file names that could indicate the presence of Privacy
Act/Sensitive information.

RESULTS

In a July 25, 2006, letter to Congress, USDA reported only eight incidents of Privacy
Act/Sensitive information that had been compromised since 2003. Our review showed that
USDA’s report to Congress was not accurate and that the true number of incidents may not be
known because of inadequate guidance requiring agencies to track and report information on
stolen computer equipment. As evidenced in our review, we found nine additional incidents of
compromised Privacy Act/Sensitive information in the limited 8-month scope of our review.

Prior to the OMB memorandum, OCIO had provided limited guidance on what agencies were
required to do when equipment was stolen and/or lost. Agencies were not tracking, reporting, or
following up on stolen or lost equipment. The lack of guidance and procedures led to the
inaccurate reporting to Congress, as noted above. ITS did not track, monitor, and report on
stolen computer equipment and only generated a list of the equipment based upon our request.
Since our request for the stolen item list, OCIO has issued some guidance to agencies and drafted
internal procedures on how to handle stolen or lost computer equipment. However, OCIO had
not issued Departmentwide guidance addressing agency requirements for tracking and reporting
lost and stolen computers and for determining the types of information stored on the computers.

We began our review by examining the stolen computer spreadsheet provided by ITS. In total,
there were 95 computers stolen from October 1, 2005, through May 31, 2006. We judgmentally
selected a sample of 66 of the 95 stolen computers at 9 service center locations throughout the
country. Our sample selection was based upon multiple computers being stolen at a site and the
site locations. We interviewed the users of the computers to determine if they knew whether
Privacy Act/Sensitive information was on the computers when the devices were stolen. In
addition, we scanned current computers at the locations to determine whether Privacy
Act/Sensitive information was presently on the equipment to determine the likeliness of this
information being present when similar equipment was stolen. We noted:

   •   9 instances where the user was aware of Privacy Act/Sensitive information present on the
       machine when it was stolen.           Information on the lost computers included
       producer/borrower names, addresses, social security numbers, and payment information;

   •   55 instances where the user was unaware of followup by the agency or OCIO to
       determine if Privacy Act/Sensitive information was actually on the stolen computer;

   •   7 instances where external storage devices were stolen along with the computer and the
       users said that there was no Privacy Act/Sensitive information on any of the equipment;

   •   66 instances where no encryption was present on the computer;
David M. Combs et al.                                                                             4


   •   26 instances where the users were not aware of any policies or procedures regarding
       stolen equipment; and

   •   27 instances where users were not aware whether the theft was reported to the Office of
       Inspector General.

Agency information technology personnel all stated that Privacy Act/Sensitive information was
not stored on the computers, but was stored on the server. Our review disclosed that this was not
the case. For example, one agency downloaded Privacy Act/Sensitive information onto the
laptop/desktop computers and then uploaded this information to the server once the user was
finished with the information. However, a flaw in the programming did not always delete the
information from computers when the information was uploaded. Our scan of current equipment
at our sample locations disclosed over 2,000 files of Privacy Act/Sensitive information on the
computers during the time of our scanning. This information included producer names,
addresses, social security numbers, and payment information similar to what we found during
our testing. The agency has since stated that the programming flaw has been fixed.

There were limited controls in place to ensure that users do not download Privacy Act/Sensitive
information from the server onto the computers. Although the default setting on computers is to
store all information on the server, the user can change the default at anytime he/she saves a file.
The information that is stored on the server or is accessed over the internet can leave Privacy
Act/Sensitive information on the local machine. Items such as Temporary Internet Files,
Recycle Bins, Virtual Memory, and unallocated space could allow a knowledgeable individual to
retrieve this information.

OCIO must rely on the agency’s due diligence in tracking and reporting computer equipment that
has been stolen, as well as in determining whether the equipment may have contained Privacy
Act/Sensitive information. Until Departmentwide encryption is effectively enforced, OCIO
cannot be assured that all information is adequately secured and protected. Since the audit was
completed, it appears that the Department has made efforts to improve the tracking, reporting
and monitoring of stolen equipment.

In response to the data call, we were told by the OCIO (see exhibit B) that many agency officials
could not confirm whether or not Privacy Act/Sensitive information existed on the lost or stolen
equipment, primarily because of the length of time that had lapsed since the incident occurred.
As a result, OCIO did not rely on the oral testimony of employees when it could not be
confirmed exactly what type of information was stored on those systems. We confirmed from
the employees that Privacy Act/Sensitive information was in fact on the stolen computers.
Government Auditing Standards affirms that oral testimony is an acceptable form of evidence.
Also, asking the user of the computer what type of information was on a computer at the time of
the theft is the only logical way to determine what could have been on the computer that has yet
to be recovered. OIG stands firm that this is not only acceptable evidence, it is the only evidence
that is available.
David M. Combs et al.                                                                        5


RECOMMENDATIONS

   1. FSA, NRCS, RD, and ITS need to effectively encrypt the entire hard drive and removable
      media on all desktops and laptops to ensure that Privacy Act/Sensitive information is not
      compromised due to stolen or lost equipment. Mobile computing devices should also be
      physically secured.

      Agency Response. OCIO-ITS agreed with the recommendation and stated that they are
      working towards the goal of encrypting the entire hard drive. They have evaluated
      products to accomplish this and expect a Blanket Purchase Agreement to be in place by
      March 31, 2007. They anticipate completing the encryption solution by December 2007.
      In addition, they have already issued guidance to the agencies on steps that can be taken
      to encrypt files for an interim solution.

      OIG Position. We concur with the actions outlined in OCIO-ITS response. However, in
      order to reach management decision, please provide a detailed, time phased plan to
      accomplish implementation of the solution throughout the country.

   2. FSA, NRCS, RD, and ITS need to develop effective policies and procedures to notify the
      OCIO, OIG, and potential affected parties when equipment is stolen and/or lost.

      Agency Response. The OCIO-ITS agreed with the recommendation. OCIO-ITS stated
      that they are in the process of reviewing and updating the current OCIO-ITS policy and
      procedures relating to incident handling in accordance with Departmental and NIST
      guidance.

      OIG Position. We concur with the actions outlined in the OCIO-ITS response.
      However, in order to reach management decision, please provide a detailed, time phased
      plan for the completion of the policies and procedures.

   3. OCIO needs to implement Departmentwide guidance regarding tracking and reporting
      requirements for computer equipment that is stolen or lost. This should include
      procedures for determining whether the subject equipment may have contained Privacy
      Act/Sensitive information.

      Agency Response. The OCIO-ITS agreed with the recommendation. After the OIG
      Audit and OMB Memos, the OCIO issued additional incident tracking guidance to the
      agencies.

      OIG Position.        We concur with OCIO-ITS management decision on this
      recommendation.
David M. Combs et al.                                                                      6


   4. OCIO should develop a process to verify agency data before relying on it.

       Agency Response. This recommendation was added after the exit conference and the
       OCIO has not officially responded.

       OIG Position. In order to reach management decision on this recommendation, the
       OCIO needs to provide a detailed, time phased plan when the policies and procedures to
       verify agency submitted data will be done.

cc:
Audit Liaison Officers for:
    Office of the Chief Information Officer
    Natural Resources Conservation Service
    Rural Development
    Farm Service Agency
Exhibit A – Sample Sites


       Location of Service Center   Number of Computers Reported as Stolen
            Tangent, Oregon                         23
       Colorado Springs, Colorado                    9
            Arlington, Texas                         9
           Avondale, Arizona                         7
         Yuba City, California                       6
          Stockton, California                       4
          Frederick, Maryland                        3
          Renton, Washington                         3
            Caldwell, Idaho                          2
                 Total                              66
Exhibit B – OCIO Response
                            Exhibit B - Page 1 of 3
Exhibit B – OCIO Response
                            Exhibit B - Page 2 of 3
Exhibit B – OCIO Response
                            Exhibit B - Page 3 of 3
Informational copies provided to:

 Sherry Linkins
 Audit Liaison Officer
 Office of the Chief Information Officer

 Dan Runnels
 Director of Operations Management
  and Oversight Division
 Natural Resources Conservation Service

 John Dunsmuir
 Acting Director
 Financial and Management Division

 T. Mike McCann
 Operations Review and Analysis Staff
